U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 26, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Israel Torres v. United States, No. 20-5579
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2020. The government’s response is now due, after one extension, on November 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 6, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioners consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5579
TORRES, ISRAEL
USA

JOSEPH G.S. GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 958914
916-378-5785
JGR@FPCHQ.ORG
DANIEL LEE KAPLAN
OFFICE OF THE FEDERAL PUBLIC DEFENDER
850 WEST ADAMS STREET
STE. 201
PHOENIX, AZ 85007
602-382-2767
DAN_KAPLAN@FD.ORG

